TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Controls Over the Use of Premium-Class
                  Travel Are Generally Effective, but Did Not
                  Detect Some Employees Traveling Without
                             Proper Authorization



                                       September 9, 2009

                              Reference Number: 2009-10-117




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 8, 2009


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Controls Over the Use of Premium-Class Travel
                             Are Generally Effective, but Did Not Detect Some Employees
                             Traveling Without Proper Authorization (Audit # 200910005)

 This report presents the results of our review of the controls over the use of premium-class
 travel. The overall objective of this review was to determine the extent of premium-class1 travel
 within the Internal Revenue Service (IRS) and whether IRS internal controls adequately ensure
 that such travel was properly authorized and justified. This review was part of the Treasury
 Inspector General for Tax Administration Fiscal Year 2009 Annual Audit Plan risk-based
 coverage under the major management challenge of Erroneous and Improper Payments.

 Impact on the Taxpayer
 According to a Government Accountability Office report,2 premium-class flights are of special
 concern to taxpayers because they often cost thousands of dollars more than the coach-class
 alternatives. We identified approximately $49,000 in unauthorized premium-class airline travel
 that occurred during Fiscal Year 2008. The IRS recently implemented new travel guidelines
 which resulted in a dramatic decrease in the use of unauthorized premium-class travel; however,
 additional emphasis and improvements in travel guidelines are still needed to help prevent
 unauthorized travel in the future.




 1
  Premium class is defined as first and business classes.
 2
  Premium Class Travel: Internal Control Weaknesses Governmentwide Led to Improper and Abusive Use of
 Premium Class Travel (GAO-07-1268, dated September 2007).
                   Controls Over the Use of Premium-Class Travel Are Generally
                     Effective, but Did Not Detect Some Employees Traveling
                                    Without Proper Authorization



Synopsis
While IRS controls over premium-class travel are generally effective, they do not ensure that
every instance of premium-class travel is properly authorized. Specifically, our review of
premium-class airline tickets purchased in Fiscal Year 2008 and the first 6 months of
Fiscal Year 2009 identified 11 instances of premium-class airline tickets that were not properly
authorized. Early in Calendar Year 2008, the Office of Management and Budget and the
Department of the Treasury issued guidance relating to the use of premium-class travel, which
included a recommendation3 that certain premium-class travel policies and procedures be
implemented immediately. The IRS had most of the recommended procedures already in place
and properly implemented the remaining procedures during Calendar Year 2008. As a result of
these additional procedures, the use of premium-class airline travel by employees has decreased
dramatically. However, it is still possible for employees to purchase premium-class travel tickets
without proper authorization. Specifically, IRS current controls do not prevent employees from
purchasing unauthorized premium-class airline tickets. In addition, IRS travel guidelines
regarding the purchase of first-class train tickets need to be clarified. Our review found several
instances of employees purchasing unauthorized first-class train tickets because they were less
expensive than coach airline tickets.
When IRS employees purchase unauthorized premium-class travel tickets, IRS approving
officials and the IRS Chief Financial Officer are unaware of the ticket purchases and the related
costs. As a result, unauthorized and improper expenditures can occur and the required annual
report on premium-class travel may be inaccurate. While the new procedures that the IRS has
implemented are generally effective, they could be improved to better ensure that the use of
premium-class travel by employees is adequately monitored in the future and that all instances of
premium-class travel, both authorized and unauthorized, are reported to the Department of the
Treasury as required.

Recommendations
We recommended that the Chief Financial Officer issue guidance emphasizing when
premium-class travel is appropriate and managers should ensure that employees and
approving/authorizing officials are aware of the current IRS travel policies. The Chief Financial
Officer also should clarify the section of the IRS travel guide that states that train service can be
used instead of a contract airline4 when it is cost effective. It should be clarified that employees
should not purchase first-class train tickets without authorization from the IRS Commissioner.


3
  Use of Premium Class Travel (OMB M-08-07, dated January 8, 2008) and First-Class and Business-Class Travel
(Treasury Directive: 74-13, dated March 21, 2008).
4
  An airline under contract with the Federal Government to provide reduced fares to Federal employees.
                                                                                                               2
                 Controls Over the Use of Premium-Class Travel Are Generally
                   Effective, but Did Not Detect Some Employees Traveling
                                  Without Proper Authorization



Response
The Chief Financial Officer agreed with all of our recommendations and has already taken
actions to address them. Specifically, the Chief Financial Officer issued guidance to ensure that
all IRS employees and approving officials are aware that premium-class travel tickets should not
be purchased without proper authorization. The Chief Financial Officer reiterated this policy to
IRS senior executives and division finance officers. The Chief Financial Officer also plans to
add language to an upcoming update to the Official IRS Travel Guide to clarify that employees
should not purchase first-class train tickets, even as part of a cost comparison, without prior
authorization from the IRS Commissioner. Management’s complete response to the draft report
is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have any questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                                3
                        Controls Over the Use of Premium-Class Travel Are Generally
                          Effective, but Did Not Detect Some Employees Traveling
                                         Without Proper Authorization




                                               Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Premium-Class Airline Tickets Were Purchased Without
          Proper Authorization and Some Were Not Justified.....................................Page 5
                    Recommendation 1: .................................................................... Page 7

          First-Class Train Tickets Were Purchased Without
          Proper Authorization.....................................................................................Page 7
                    Recommendation 2:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measure ................................................................Page 13
          Appendix V – Office of Management and Budget and the
          Department of the Treasury Recommendations ...........................................Page 14
          Appendix VI – Management’s Response to the Draft Report ......................Page 15
       Controls Over the Use of Premium-Class Travel Are Generally
         Effective, but Did Not Detect Some Employees Traveling
                        Without Proper Authorization




                     Abbreviations

CFO            Chief Financial Officer
GAO            Government Accountability Office
IRS            Internal Revenue Service
TRAS           Travel Reimbursement and Accounting System
                        Controls Over the Use of Premium-Class Travel Are Generally
                          Effective, but Did Not Detect Some Employees Traveling
                                         Without Proper Authorization




                                                Background

With respect to Government travel, Federal employees on official travel are expected to follow
published guidelines related to when and how premium-class1 travel can be used. Widespread
improper use of premium-class airline travel in several Federal agencies has raised concerns with
Congress and the Government Accountability Office (GAO) about the effectiveness of controls
over travel by Federal employees. According to the Internal Revenue Service (IRS) travel guide,
employees can use first-class or business-class accommodations only if one or more of the
following conditions are met:

Justification for use of first-class accommodations
       •   Coach class or business class is not reasonably available.
       •   Necessary to accommodate a disability or other special need.
       •   Exceptional security circumstances exist.
       •   Required because of the mission.
       •   For train accommodations, coach class is inadequate.

Justification for use of business-class accommodations
       •   Regularly scheduled flights provide only first-class and business-class accommodations.
       •   Space is not available in coach-class accommodations in time to accomplish the mission,
           which is urgent and cannot be postponed.
       •   Necessary to accommodate a disability or other special need.
       •   Security purposes or exceptional circumstances exist that make the use of business-class
           accommodations essential to the successful performance of the mission.
       •   Coach-class accommodations on a foreign air carrier do not provide adequate sanitation
           or health standards.
       •   Use results in an overall cost savings to the Government by avoiding additional
           subsistence costs, overtime, or lost productive time while awaiting coach-class
           accommodations.



1
    Premium class is defined as first and business classes.
                                                                                             Page 1
                   Controls Over the Use of Premium-Class Travel Are Generally
                     Effective, but Did Not Detect Some Employees Traveling
                                    Without Proper Authorization



    •   The origin and/or destination are outside the continental United States, and the scheduled
        flight time, including stopovers and change of planes, is in excess of 14 hours.
    •   Required because of the mission.
Early in Calendar Year 2008, both the Office of Management and Budget and the Department of
the Treasury issued guidance relating to the use of premium-class travel, which included a
recommendation2 that certain premium-class travel policies and procedures be implemented
immediately. Refer to Appendix V for a detailed listing of all the recommendations. The IRS’
existing travel guide already included many of these recommendations.
The recommendations were the result of control breakdowns identified in a GAO audit report3
regarding the use of premium-class travel. The GAO estimated that the Federal Government
spent more than $230 million on about 53,000 premium-class travel tickets from July 1, 2005,
through June 30, 2006. Of the more than $230 million in Governmentwide premium-class
travel, the GAO estimated that 67 percent of the trips were improperly authorized, improperly
justified, or both. According to the GAO, premium-class flights are of special concern to
taxpayers because they often cost thousands of dollars more than the coach-class alternatives.
The serious fiscal challenges facing the Federal Government dictate that agencies do everything
they can to operate as efficiently as possible. While the GAO report identified instances of
improper premium-class travel within the Department of the Treasury, the report did not include
any statistics for the IRS.
This review assessed the effectiveness of IRS controls over employees’ use of premium-class
travel. The Chief Financial Officer (CFO) has the overall responsibility of establishing effective
controls and procedures over the use of premium-class travel in the IRS. IRS managers have the
responsibility for ensuring that their staffs are aware of agency travel policies and that those
policies are adhered to.
When IRS employees incur a premium-class travel expense, they claim the expense on their
travel reimbursement voucher which is approved by their immediate manager. However, the
premium-class travel expense is not properly authorized unless it receives the approval of the
IRS Commissioner for first-class travel or the Commissioner, Large and Mid-Size Business
Division, for business-class travel. IRS employees are required to obtain this authorization prior
to incurring the premium-class travel expense and the CFO is notified as part of this process.
The CFO annually prepares a report for the Department of the Treasury which lists all authorized
instances of premium-class travel at the IRS. Without effective internal controls over



2
  Use of Premium Class Travel (OMB M-08-07, dated January 8, 2008) and First-Class and Business-Class Travel
(Treasury Directive: 74-13, dated March 21, 2008).
3
  Premium Class Travel: Internal Control Weaknesses Governmentwide Led to Improper and Abusive Use of
Premium Class Travel (GAO-07-1268, dated September 2007).
                                                                                                      Page 2
                 Controls Over the Use of Premium-Class Travel Are Generally
                   Effective, but Did Not Detect Some Employees Traveling
                                  Without Proper Authorization



premium-class travel, the IRS is at risk of incurring unnecessary travel expenses in situations
where the premium-class travel was not justified, authorized, or both.
This review was performed at the IRS National Headquarters in Washington, D.C., in the office
of the CFO during the period January through April 2009. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                    Controls Over the Use of Premium-Class Travel Are Generally
                      Effective, but Did Not Detect Some Employees Traveling
                                     Without Proper Authorization




                                     Results of Review

To strengthen controls over the use of premium-class travel, the IRS implemented the additional
procedures recommended by the Office of Management and Budget and the Department of the
Treasury that were not already included in the IRS travel guide. One of the new procedures
required that the IRS submit an annual premium-class travel report to the Department of the
Treasury, and the IRS complied with this requirement during Fiscal Year 2008. The other
recommended procedure restricted the use of business-class travel for long international flights.
In August 2008, the IRS Commissioner issued new requirements4 for the approval of
business-class travel. Prior to the new requirements, employees flying more than 14 hours were
permitted to use business-class travel. Based on the new requirements, IRS employees flying
more than 14 hours must make every effort to schedule rest periods in order to reduce the travel
time for each travel segment to less than 14 hours and use coach-class tickets for each flight. As
a result of this policy change, the use of business-class travel within the IRS significantly
decreased from 30 tickets reported in Fiscal Year 2008 to 3 tickets approved during the first
6 months of Fiscal Year 2009.
While the new procedures were generally effective, improvements are needed to better ensure
that premium-class travel is adequately monitored in the future. During our review of
premium-class airline tickets purchased during Fiscal Year 2008 and the first 6 months of
Fiscal Year 2009, we found that 11 of the 51 premium-class airline tickets were not authorized
properly. We also determined that several employees improperly purchased first-class train
tickets because they were less expensive than coach airline tickets. When IRS employees
purchase unauthorized premium-class travel, improper expenditures can occur and not be
detected by IRS management. Since IRS management was unaware of the premium-class travel
expenditures, the expenditures were not included in the required annual report to the Department
of the Treasury. As a result, the IRS Fiscal Year 2008 annual report regarding the use of
premium-class travel was inaccurate.5
Although the number of premium-class travel tickets has decreased significantly since the IRS
implemented the new travel-related procedures, it is still possible for employees to purchase
first-class and business-class tickets without proper authorization. For example, an IRS
employee can purchase a premium-class travel ticket directly from the airline instead of going
through the electronic travel system, which would automatically flag the ticket for additional

4
  Memorandum dated August 13, 2008, from the IRS Commissioner regarding the new requirements for approval of
business-class travel, international travel, and cyber security when traveling.
5
  Treasury Directive 74-13 dated March 21, 2008, requires Department of the Treasury bureaus to submit an annual
report of premium-class travel to the Department of the Treasury to be combined in a Departmental-wide report to
the General Services Administration.
                                                                                                        Page 4
                       Controls Over the Use of Premium-Class Travel Are Generally
                         Effective, but Did Not Detect Some Employees Traveling
                                        Without Proper Authorization



review. It is important that IRS managers and employees be reminded that the purchase of
premium-class travel tickets must have proper authorization. Although the traveler’s immediate
manager can approve the employee’s travel arrangements, premium-class travel is not authorized
unless the IRS Commissioner or the Commissioner, Large and Mid-Size Business Division,
approves the purchase.

Premium-Class Airline Tickets Were Purchased Without Proper
Authorization and Some Were Not Justified
Although the majority of premium-class travel tickets were properly authorized, we found that
the IRS’ new approval procedures and requirements do not ensure that every instance of
premium-class travel is properly authorized. We analyzed Citibank credit card expense records
for all IRS employees from October 2007 through March 2009 and identified 11 (22 percent) of
51 instances of employees purchasing first-class and business-class airline tickets that were not
properly authorized by the appropriate IRS approving official. Figure 1 shows details of the
11 unauthorized tickets.
             Figure 1: Schedule of Unauthorized Premium-Class Travel Tickets
                   Date of Trip          Type of Trip            Type of Ticket           Cost of Ticket6
                 Fiscal Year 2008
                    April 2008              Domestic              First Class                       $558
                   October 2007           International          Business Class                    $8,247
                  November 2007           International          Business Class                    $3,991
                  December 2007           International          Business Class                    $3,615
                  February 2008           International          Business Class                    $8,299
                    April 2008            International          Business Class                   $10,642
                    May 2008              International          Business Class                    $4,660
                    May 2008              International          Business Class                    $4,334
                    May 2008              International          Business Class                    $4,314
                                                                 Total Fiscal Year 2008           $48,660
                 Fiscal Year 2009
                  November 2008            Domestic                First Class                      $838
                  December 2008            Domestic                First Class                     $1,394
                                                                 Total Fiscal Year 2009             $2,232
                                                                 Total Cost of Tickets            $50,892
                 Source: Citibank credit card expense records.




6
    Some individual legs of travel may be coach prices.
                                                                                                             Page 5
                     Controls Over the Use of Premium-Class Travel Are Generally
                       Effective, but Did Not Detect Some Employees Traveling
                                      Without Proper Authorization



We also determined that IRS employees’ use of premium-class service was not justified in
3 of the 11 cases:
    •   One of the 8 business-class tickets was not justified based on the travel guidelines
        because the total travel time for this trip was not greater than 14 hours.
    •   Two of the three first-class tickets did not include a justification.
Because of the unauthorized premium-class travel, the IRS Fiscal Year 2008 report on
premium-class travel that the IRS CFO submitted to the Department of the Treasury was
inaccurate. Specifically, the report contained only 32 first-class and business-class tickets,
totaling $226,000. However, during our review of the Citibank data, we found that the IRS
actually purchased 41 premium-class travel tickets, totaling $275,000. The 9 unauthorized
premium-class travel tickets purchased during Fiscal Year 2008, totaling approximately $49,000,
were not included in the IRS annual report to the Department of the Treasury. These nine tickets
were not submitted to the IRS Commissioner or one of the Deputy Commissioners of the IRS7
for approval and, as a result, these approving officials were unaware that these tickets existed.
Although the employees’ immediate managers may have approved the employees’ travel
arrangements and corresponding travel vouchers, the use of premium-class travel is not
authorized until the employee receives approval from the IRS Commissioner for first-class travel
or from one of the Deputy Commissioners or the Commissioner, Large and Mid-Size Business
Division, for business-class travel.
The IRS’ ongoing transition to a new travel reimbursement system includes controls that identify
premium-class travel. Business-class airline tickets are generally only available on international
flights. During our audit period, most of the IRS employees used the Travel Reimbursement and
Accounting System (TRAS),8 which cannot process claims for overseas flights. Consequently,
travel authorizations and travel vouchers for these flights were processed manually, which
presents a higher risk that premium-class travel authorizations may not be sent to the appropriate
officials for approval. The IRS is in the process of replacing the TRAS with GovTrip9 and
expects to completely discontinue the use of the TRAS by July 31, 2009. The GovTrip system
will be used to process all travel authorizations and vouchers for IRS employees, including
overseas flights.
One advantage of GovTrip is that it has automated controls that the TRAS does not have that
will improve monitoring and oversight of travel expenses incurred by IRS employees. For
example, GovTrip has a routing option that electronically alerts the appropriate IRS official

7
  Beginning in Fiscal Year 2009, all business-class travel should be authorized by the Commissioner, Large and
Mid-Size Business Division.
8
  The TRAS is the IRS travel system that is used by employees to prepare travel authorizations, advance requests,
and claims. The TRAS is an automated system that uses electronic signatures and interfaces to the automated
accounting system to generate payments to employees.
9
  GovTrip is an automated travel support system used by many government agencies.
                                                                                                            Page 6
                       Controls Over the Use of Premium-Class Travel Are Generally
                         Effective, but Did Not Detect Some Employees Traveling
                                        Without Proper Authorization



when an employee is attempting to book and purchase a premium-class airline ticket. We
believe that this routing feature is an efficient and economical control to help ensure that
employees do not improperly purchase premium-class airline tickets in the future.
However, if an IRS employee purchases a premium-class airline ticket directly from an airline, it
will not be included in the GovTrip reservation and, consequently, it will not be routed to the
appropriate IRS approving official. One of the two instances of unauthorized premium-class
travel in Fiscal Year 2009 appears to involve an employee upgrading to first-class directly with
the airline. If this occurs, there is no upfront control to prevent the purchase of the
premium-class travel ticket, only an after-the-fact control when the manager reviews the travel
voucher and sees the premium-class travel ticket. All IRS managers and employees should be
reminded that the purchase of premium-class travel tickets must have proper authorization.

Recommendation
Recommendation 1: The CFO should issue guidance emphasizing that 1) premium-class
travel tickets should not be purchased without proper authorization and 2) managers should
ensure that employees and approving/authorizing officials are knowledgeable of the current IRS
travel policies.
           Management’s Response: IRS management agreed with the recommendation. In
           early July 2009, the CFO posted guidance on the IRS Intranet emphasizing that
           premium-class travel tickets should not be purchased without proper authorization. In
           addition, the CFO reiterated the premium-class travel authorization policies to IRS senior
           executives and presented these policies to the division finance officers.

First-Class Train Tickets Were Purchased Without Proper
Authorization
During our analysis of the Citibank credit card expense records, we identified four instances of
employees purchasing first-class train tickets that were not justified or properly authorized. We
believe that the IRS travel guidelines are unclear and contributed to this situation. Specifically,
one section of the IRS travel guide10 outlines when an employee must use a contract airline.11
This section also states that an employee can use train service instead of the contract airline when
it is cost effective; however, it does not specifically restrict the use of train service to coach class.
Based on our review of the IRS’ use of first-class train tickets, some employees may have
interpreted this language to mean that they can purchase any type of train ticket as long as it is
less expensive than the contract airline ticket. In all four of the cases, the employees compared
the cost of the first-class train ticket to the cost of a coach-class ticket with the contract airline

10
     Internal Revenue Manual Section 1.32.1.1.10(1)d, Use of Contract City-Pair Fares, dated September 1, 2006.
11
     An airline under contract with the Federal Government to provide reduced fares to Federal employees.
                                                                                                            Page 7
                  Controls Over the Use of Premium-Class Travel Are Generally
                    Effective, but Did Not Detect Some Employees Traveling
                                   Without Proper Authorization



and chose the first-class train ticket because it was less expensive. However, according to IRS
management, employees are not entitled to a first-class ticket based solely on the fact that it is
less expensive. We could not calculate the added cost to the IRS for these four tickets because
the travel documentation did not identify the cost of a coach-class train ticket. Figure 2 provides
a schedule with the details of the four tickets.
             Figure 2: Schedule of Unauthorized First-Class Train Tickets
                 Date of Trip               Type of Train Ticket               Cost of Ticket
               November 2007                     First Class                            $513
                February 2008                    First Class                            $677
                 August 2008                     First Class                            $893
               September 2008                    First Class                            $717
                                                Total Cost of Tickets                 $2,800
        Source: Citibank credit card expense records.

According to the IRS travel guide, employees should not purchase first-class train tickets without
authorization from the IRS Commissioner. In addition, employees are generally expected to use
coach accommodations for train travel. Traveling first-class without proper authorization is
prohibited and results in improper use of Government funds.

Recommendation
Recommendation 2: The CFO should clarify the section of the IRS travel guide that states
that train service can be used instead of a contract airline when it is cost effective. It should be
clarified that employees should not purchase first-class train tickets, even as part of a cost
comparison, without authorization from the IRS Commissioner.
       Management’s Response: IRS management agreed with the recommendation and
       posted guidance on the IRS Intranet to clarify for all employees and managers that
       first-class train tickets should not be purchased without authorization from the IRS
       Commissioner. The CFO also plans to add language to the Official IRS Travel Guide to
       state that employees should not purchase first-class train tickets, even as part of a cost
       comparison, without proper authorization from the IRS Commissioner.




                                                                                                Page 8
                   Controls Over the Use of Premium-Class Travel Are Generally
                     Effective, but Did Not Detect Some Employees Traveling
                                    Without Proper Authorization



                                                                                            Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the extent of premium-class travel within
the IRS and whether IRS internal controls adequately ensure that such travel was properly
authorized and justified. To accomplish this objective, we:
I.      Identified the policies and procedures the IRS follows to ensure that premium-class travel
        is properly authorized and justified.
        A. Identified the procedures the IRS implemented relating to premium-class travel in
           response to the Office of Management and Budget and Department of the Treasury
           guidance.1
        B. Obtained from the IRS any reports listing the extent of premium-class travel incurred
           during Fiscal Year 2008 by IRS employees.
        C. Determined the extent that the IRS implemented the premium-class travel policies
           recommended in the recent Office of Management Budget and Department of the
           Treasury guidance.
II.     Determined whether premium-class travel incurred at the IRS during Fiscal Year 2008
        and the first 6 months of Fiscal Year 2009 was authorized and justified.
        A. Obtained access to the IRS travel card company database of travel expenses incurred
           by IRS employees during Fiscal Year 2008 and the first 6 months of
           Fiscal Year 2009. From this database, we performed queries to identify all
           premium-class travel incurred by IRS employees during the audit period. We did not
           obtain a download of the Citibank’s entire travel card company database since it was
           not provided in time for our review. In addition, we did not attempt to identify any
           travel expenses of IRS employees that were paid for in cash or with personal credit
           cards.
            1. Performed data validation tests on the travel card data. We conducted sanity
               checks on the credit card data fields to ensure that the amounts were reasonable
               and the dates were within the audit period.




1
 Use of Premium Class Travel (OMB M-08-07, dated January 8, 2008) and First-Class and Business-Class Travel
(Treasury Directive: 74-13, dated March 21, 2008).
                                                                                                     Page 9
          Controls Over the Use of Premium-Class Travel Are Generally
            Effective, but Did Not Detect Some Employees Traveling
                           Without Proper Authorization



   2. Compared premium-class travel data we identified to premium-class travel data
      produced by Citibank and concluded that data reliability was sufficient for the
      review.
B. Obtained any documentation used by the IRS to record the approval of premium-class
   travel and compared these to the population of premium-class travel identified from
   the credit card data in Step II.A. to ensure that all instances of premium-class travel
   were appropriately authorized.
C. Reviewed the reason for premium-class travel contained in the documents obtained in
   Step II.B. to ensure that the travel was justified based on the criteria in the
   Department of the Treasury Directive.




                                                                                  Page 10
                Controls Over the Use of Premium-Class Travel Are Generally
                  Effective, but Did Not Detect Some Employees Traveling
                                 Without Proper Authorization



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Michelle Philpott, Audit Manager
Tom J. Cypert, Lead Auditor
Gary D. Pressley, Senior Auditor
David P. Robben, Senior Auditor




                                                                                  Page 11
                Controls Over the Use of Premium-Class Travel Are Generally
                  Effective, but Did Not Detect Some Employees Traveling
                                 Without Proper Authorization



                                                                            Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Commissioner, Large and Mid-Size Business Division SE:LM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Chief, Agency-Wide Shared Services OS:A
                 Chief Financial Officer OS:CFO
                 Commissioner, Large and Mid-Size Business Division SE:LM




                                                                                  Page 12
                    Controls Over the Use of Premium-Class Travel Are Generally
                      Effective, but Did Not Detect Some Employees Traveling
                                     Without Proper Authorization



                                                                                             Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $48,660 of unauthorized premium-class air travel by
    IRS employees during Fiscal Year 2008 was not reported to the Department of the Treasury
    (see page 5). Potential; $2,232 of unauthorized premium-class air travel by IRS employees
    during Fiscal Year 2009 might not have been reported to the Department of the Treasury
    (see page 5).

Methodology Used to Measure the Reported Benefit:
To determine the amount of unreported premium-class air travel by IRS employees, we
identified the number of premium-class air tickets that had been charged on IRS travel cards for
the period October 2007 through March 2009 that had not been properly authorized. During our
review, we found that nine unauthorized premium-class travel tickets were not included on the
IRS Fiscal Year 2008 report to the Department of the Treasury.1 The amount identified is not
based on a sample, but is the total amount of unauthorized premium-class travel tickets
purchased. The data came from Citibank financial records that were considered to be reliable.
In addition, we identified 2 instances of unauthorized first-class travel during the first
6 months of Fiscal Year 2009. These unauthorized premium-class travel tickets potentially
would not have been included on the IRS’ Fiscal Year 2009 annual report to the Department of
the Treasury. Since our fieldwork ended before the end of Fiscal Year 2009 and the annual
report was not yet due to the Department of the Treasury, we do not know what would have been
reported for premium-class travel for Fiscal Year 2009.




1
  Treasury Directive 74-13 dated March 21, 2008, requires Department of the Treasury bureaus to submit an annual
report of premium-class travel to the Department of the Treasury to be combined in a Departmental-wide report to
the General Services Administration.
                                                                                                        Page 13
                   Controls Over the Use of Premium-Class Travel Are Generally
                     Effective, but Did Not Detect Some Employees Traveling
                                    Without Proper Authorization



                                                                                          Appendix V

          Office of Management and Budget and the
        Department of the Treasury Recommendations

The review performed by the GAO during 2007 identified internal control weaknesses that led to
improper and abusive use of premium-class travel by Federal employees. As a result of the
findings of the GAO review, the Office of Management and Budget and the Department of the
Treasury1 requested that Government organizations and agencies implement the following
recommendations:
    •   Require that premium-class travel requests for all agency personnel, including
        senior-level executives, be approved by an individual at least at the same level as the
        traveler or by an office designated to approve premium-class travel.
    •   Develop and issue internal guidance that explains when mission criteria and intent call
        for premium-class accommodations.
    •   Define what constitutes a rest period.
    •   Require annual certifications of a disability, unless such disability is lifelong.
    •   Restrict premium-class travel for both temporary duty and permanent change of station
        travel (relocations) when the employee is not required to report to duty the following day.
    •   Prohibit blanket travel authorizations for premium-class travel, unless the traveler has a
        certification of disability.
    •   Use Treasury Department Form 70-02.6 (First-Class and Business-Class Travel Request
        and Authorization) for internal review and approval of premium-class travel.
    •   Submit an annual report of all approved first-class and business-class travel that occurred
        during each fiscal year (beginning in Fiscal Year 2008) to the Department of the Treasury
        Deputy CFO.




1
 Use of Premium Class Travel (OMB M-08-07, dated January 8, 2008) and First-Class and Business-Class Travel
(Treasury Directive: 74-13, dated March 21, 2008).
                                                                                                   Page 14
    Controls Over the Use of Premium-Class Travel Are Generally
      Effective, but Did Not Detect Some Employees Traveling
                     Without Proper Authorization



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 15
Controls Over the Use of Premium-Class Travel Are Generally
  Effective, but Did Not Detect Some Employees Traveling
                 Without Proper Authorization




                                                       Page 16
Controls Over the Use of Premium-Class Travel Are Generally
  Effective, but Did Not Detect Some Employees Traveling
                 Without Proper Authorization




                                                       Page 17
